NO.

In the

Supreme Court of the United States
Chris Eugene Cosner,
Petitioner,
v.
United States of America,
Respondent.

On Petition for a Writ of
Certiorari from the United States
Court of Appeals for the Fifth
Circuit
Fifth Circuit Case No. 16-60673

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), Petitioner, Chis Eugene
Cosner, requests leave to file the accompanying Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit without prepayment of costs and to
proceed in forma pauperis. Petitioner was represented by counsel appointed under the
Criminal Justice Act, 18 U.S.C. ยง 3006A (b) and (c), in the United States District Court
for the Northern District of Mississippi and on appeal to the United States Court of
Appeals for the Fifth Circuit.

Dated: September 3, 2021.
RESPECTFULLY SUBMITTED:
/s/ Margaret Sams Gratz
Margaret Sams Gratz (MB #99231)
Mitchell, McNutt & Sams, P.A.
105 South Front Street
Post Office Box 7120
Tupelo, Mississippi 38802-7120
Telephone: 662-842-3871
mgratz@mitchellmcnutt.com
ATTORNEY FOR PETITIONER/
DEFENDANT

2845771

2

